Case No. 20-6735

IN THE
SUPREME COURT OF THE UNITED STATES

From:
Supreme Court of Florida Case No. SC 19-1814
Third District Court of Appeal of Fla. Case No. 3D19-1562
11th Jud. Cir. of Fla. Appellate Division Case No.13-394 AP (01)
County Court, Miami-Dade Cty, Florida Case 2011-026200 CC 23 (02)
FRANK A. McCLUNG, JR. and
MARIAN E. TELLMAN-McCLUNG,
his wife,
Petitioners,
vs.
ELIA E. ESTEVEZ,
Respondent.

PETITION FOR REHEARING

received
APR 16 2021

FRANK A. McCLUNG, JR., Petitioner, Pro Se
P.O. Box 14-2063, Gainesville, FL 32614-2063
Telephone: (352) 214-8273

MARIAN E. TELLMAN-McCLUNG, Petitioner,
Pro Se
P.O. Box 14-2063, Gainesville, FL 32614-2063
Telephone: (352) 247-5063

McClung v. Estevez
Case No 20-6735

POINT ON REHEARING
RESPONDENT ESTEVEZ SOUGHT AND WAS AWARDED
STATUTORY ATTORNEY'S FEES UNDER FLORIDA STATUTE
§83.48 (2013) WHICH IS NOT APPLICABLE UNDER THE FACTS
OF THIS CASE, AND THEREFORE THE AWARD OF SAME (App
“B” Doc 1) IS FUNDAMENTAL ERROR REQUIRING REVERSAL.
TABLE OF CONTENTS
Cover Page

i

Point on Rehearing

ii

Compliance with Rule 44

1

Point on Rehearing

1

Facts Apparent from the Record.

1

Argument

2

Conclusion

8

Certificate of Good Faith

9

Proof of Service (copy) .

10

Exhibits
Ex"l" Florida Statutes § 83.48 (2013) .

ii, 1, 2, 5, 8, 9

Ex "2" Florida Statutes § 83.48 (2012) .

2,5

Ex "3" Florida Statutes § 83.59 (2012) .

3,4,5

Ex "4" Florida Statutes § 83.59 (2013) .

3,4

Ex "5" Florida Statutes § 83.625 (2013).

4

Ex "6" Emergency Motion to Vacate Premature Judgment and to Stay Further Proceedings;
and Emergency Request for Hearing, filed July 26, 2012 .
[Exhibit "2" to the Motion, Memorandum of Law, is App "J" Doc 1 to the original
Petition for Writ of Certiorari and is not duplicated herein.]

7

TABLE OF CITED AUTHORITIES
Constitution of the United States of America
9

Fourteenth Amendment
ii

McClung v. Estevez
Case No 20-6735

Rules of the Supreme Court
Rule 29.

10

Rule 44

1

Federal Rules of Civil Procedure
Fed.R.Civ.P 55(b)(2)

.

6

Fed.R.Civ.P. 60(b)(4)

.

8

Federal Cases

Hancock v. Miller,
United States Court of Apeals, 6th Circuit, 3/26/21

9

Hensley v. Eckerhart
461 U.S. 424, 433, 103 S.Ct. 1933, 1939, 76 L.Ed.2d 40 (1983) .

5

In re Burrus,
136 U.S. 586,10 S.Ct. 850, 34 L.Ed. 500 (1890)

7

Kalb v. Feuerstein
308 U.S. 433, 60 S.Ct. 343, 84 L.Ed. 370 (1940)

.

Lubben v. Selective Service System Local Board 27
453 Fed.2d 645, 649 (1972)

7
7,8

Powell v. BestBuy Co., Inc., "II Standard of Review," No. 3:21-cv-00064-MOC-DSC,
United States District Court, W.D. North Carolina, Charlotte Division, March 22, 2021

6

Rooker v. Fidelity Trust Comany
263 U.S. 413, 414-416 (1923)

9

.

Tilson v. DISA, Incorporated
No. 20-30009, Summary Calendar
United States Court of Appeals, Fifth Circuit, September 10, 2020

1,5

United States ofAmerica v. Boch Oldsmobile, Inc., 909 Fed.2d 657, 661-662
United States Court of Appeal, First Circuit 1990

8

United States to use of Wilson v. Walker
109 U.S. 258, 3 S.Ct. 277, 27 L.Ed. 927 (1883)

7

V.T.A., Inc. v. Airco, Inc., 597 F.2d 220
iii

McClung v. Estevez
Case No 20-6735

8

United States Court of Appeals, Tenth Circuit, 1979.
Florida Statutes
Florida Statutes § 51.011

3,4

Florida Statutes § 83.40

3

Florida Statute § 83.48 (2012) .

2,5

Florida Statute § 83.48 (2013) .

ii, 1, 2, 5, 8, 9

Florida Statute § 83.59 (2011) .

3,4,5

Florida Statutes § 83.59 (2013) .

3,4

Florida Statute § 83.625 (2013).

4

Florida Rules of Civil Procedure
.

6

Fla.R.Civ.P. 1.540(b)(4)

7

Fla.R.Civ.P. 1.500(b)

Florida Cases
Colonel v. Reed
379 So.2d 1297, 1298 (Fla 1980)

6,8

Florida Organic Aquaculture, LLC, v Advent Environmental Systems, LLC
268 So.3d 910, 912 (Fla. 5th DCA 2019)
Keys Company v. Sens
382 So.2d 1273 (Fla. 3rd DCA 1980)

.

6

1, 7, 8, 9

Lewis v. Guthartz
428 So.2d 222, 224 (Fla. 1982) .

5

Pro-Art Dental Lab v. V-Strategic Group, LLC
986 So.2d 1244, 1259, (Fla. 2008) .

8

Stevens v. Allegro Leasing, Inc.
562 So.2d 380 (Fla. 4th DCA 1990)

1

Other Authorities
7 Moore's Federal Practice

60.25

7

.
iv

McClung v. Estevez
Case No. 20-6735

Compliance with Rule 44
Petitioners FRANK A. McCLUNG, JR. and MARIAN E. TELLMAN-McCLUNG, pro se,
pursuant to Supreme Court Rule 44, "Rehearing," in addition to and without waiving any argument
previously raised, provide the following, substantial ground, not previously presented, for rehearing.
Petitioners first became aware that this issue is fundamental error, and therefore reviewable without
formal objection below, upon finding Keys Company v. Sens, 382 So.2d 1273, (Fla. 3rd DCA 1980),
after the Petition for Writ of Certiorari was filed herein. Seeking recovery under an inapplicable statute is
grounds to deny recovery under Tilson v. DISA, Incorporated, No. 20-30009, Summary Calendar, United
States Court of Appeals, Fifth Circuit, September 10,2020.
References to documents attached to this Petition are to "Ex

." References to documents

included in the Appendix to the Original Petition are to "App___."

Point on Rehearing
RESPONDENT ESTEVEZ SOUGHT AND WAS AWARDED
STATUTORY ATTORNEY'S FEES UNDER FLORIDA STATUTE §
83.48, (2013) WHICH IS NOT APPLICABLE UNDER THE FACTS
OF THIS CASE, AND THEREFORE THE AWARD OF SAME, (App
“B” Doc 1), IS FUNDAMENTAL ERROR REQUIRING REVERSAL.

Facts Apparent from the Record
Respondent ESTEVEZ sought only statutory attorney's fees, (see App “Z” Doc 1 Pg 31 Lns. 1819, “[T]he basis for the fees is statutory”); and only pursuant to Florida Statute § 83.48, (see App "G"
Doc 2 and App "K" Doc 2, Respondent's Motions for Attorney's Fees filed in the 2012 certiorari
proceedings for which the Trial Court awarded attorney's fees, and App "L" Doc 1, Respondent's October
23, 2012, Motion for Evidentiary Hearing to Determine Attorney's Fees and Costs).

Respondent

ESTEVEZ made no pre-judgment plea of entitlement to, or motion for, statutory trial court attorney's
fees. (App "N" Doc 1, Complaint; App "R" Doc 1, Motion to Strike Answer; App "H" Doc 1, Emergency
Motion for Final Judgment, Affidavit of costs only.)
1

McClung v. Estevez
Case No. 20-6735

Argument
Respondent ESTEVEZ, was not entitled to seek statutory attorney's fees under Florida Statute §
83.48 (2013), (Ex “1”), effective July 1, 2013, the date of the hearing during which the attorney's fees
were awarded. (App "Z" Doc 1, Transcript, 7/1/13 hearing).
Florida Statute § 83.48 (2013), (Ex "1"), provides:
83.48 Attorney’s fees. - In any civil action brought to enforce the
provisions of the rental agreement or this part, the party in whose favor
a judgment or decree has been rendered may recover reasonable
attorney fees and court costs, from the nonprevailing party. (Emphasis
provided). (Provisions of second sentence added in 2013 are not
applicable.)
The underlined portion of the quoted statute, amended effective July 1, 2013, (Ex “1”), previously read
“reasonable court costs including attorney’s fees.” Florida Statute § 83.48 (2012), (Ex "2"), (Emphasis
provided). The amendment redefined the term "court costs" as costs only. This clarification is material to
an understanding of the statute in "this part" under which the within trial court lawsuit was brought,
Florida Statute § 83.59 (2011), (Ex “3”), which provides: “(4) The prevailing party is entitled to have
judgment for costs and execution therefor.” The statute "in effect at the time of the decision" is the
applicable statute. Stevens v. Allegro Leasing, Inc., 562 So.2d 380 (Fla. 4th DCA 1990). Effective July
1, 2013, the date the attorney's fees were awarded, the term "costs" meant only costs, and did not
"include" attorney's fees.
Respondent ESTEVEZ, who appears to be but was not the prevailing party, sought attorney's fees
under a statute which did not authorize attorney's fees in this case, barring Respondent's recovery herein
as it did in Tilson, supra, as follows.
1.

Florida Statute § 83.48 (2013), (Ex "1"), allows "attorney fees and court costs" in cases

"brought to enforce the provisions of the rental agreement or this part,".... The Complaint, (App "N" Doc
1), was not "brought to enforce the ... rental agreement." The Complaint: (1) attached the pre-suit
notice, not the contract, (Pg 5); (2) denied there was a written contract, (Pg 2 Par 3); (3) expressly stated:

2

McClung v. Estevez
Case No. 20-6735

"however, that [rent] is not at issue," (Pg 2 Par 4), and did not allege violation of any contractual term; but
(4) instead stated: "Plaintiff merely desires to reclaim possession of her unit...." (Pg 2 Par 4). During the
February 6, 2012 hearing, counsel for Respondent re-affirmed, as a cause of action: "My client just needs
her property back." (App "Y" Doc 1, Transcript, 2/6/12 hearing, Pg 8 Ln 11).
It was Petitioners who raised the parties' written, unexpired contract and addenda thereto,
in defense of their right of possession. (App "O" Doc 1 Pg 5, Answer attaching original March 31, 2007
contract; and App "Y" Doc 2, June 15, 2008 addenda to contract with duration provision until "sale,"
which never occurred, presented during the 2/6/12 hearing, App "Y" Doc 1 Pg 15 Lns 1-24).
During the February 6, 2012 prejudgment hearing, the Trial Court stated the unexpired,
written contract "is not valid." App "Y" Doc 1 Pg 25 Lns 7-8).
Therefore, rather than enforcing it, this action eviscerated the parties' unexpired, written
contract.
2.

The Complaint, (App "N" Doc 1), was brought pursuant to, and therefore with the intent

to enforce the provisions of, "this part," being "Part II," "Florida Residential Landlord and Tenant Act."
Florida Statutes § 83.40.
The Complaint, filed December 9,2011, (App “N” Doc 1), stated: (Pg 1, Par 1):
1. This is an action for removal of tenant(s) from real property located in
Miami-Dade County, Florida pursuant to Section 83.59 of the Florida
Statutes. (Emphasis provided.)
The relevant portions of Florida Statutes § 83.59 (2013), (Ex "4"), "Right of action for
possession," are:
(2) A landlord, the landlord's attorney, or the landlord's agent, applying
for the removal of a tenant shall file in the county court of the county
where the premises are situated a complaint describing the dwelling unit
and stating the facts that authorize its recovery. ... The landlord is
entitled to the summary procedure provided in s. 51.011, and the court
shall advance the cause on the calendar
(3) The landlord shall not recover possession of a dwelling unit except:
(a) in an action for possession under subsection (2) or other civil action
in which the issue of right of possession is determined; ... [(b)(c)(d) not
applicable].
3

McClung v. Estevez
Case No. 20-6735

(4) The prevailing party is entitled to have judgment for costs and
execution therefor. (Emphasis provided.)
The only difference in the Statute when the Complaint was filed in 2011, was "[F.S. 1971]" appeared after
"s.51.011" in Paragraph (2). (Ex "3").
The statute, Paragraph (4), expressly provides for recovery only of “costs.” Consistent
therewith, counsel for Respondent itemized only trial court "costs" in the Affidavit attached to
Respondent's pre-judgment, July 17, 2012, Emergency Motion for Final Judgment, (App "H" Doc 1), and
did not mention trial court attorney's fees in the Motion.
3.

The reason for expressly providing only for recovery of costs becomes apparent by

reviewing Florida Statute § 83.625 (2013), "Power to Award Possession and Enter Money Judgment,"
(Ex “5,” not amended since 1988), which provides: "The prevailing party in the action may also be
awarded attorney's fees and costs," - provided, however, that "no money judgment shall be entered
unless service of process has been effected by personal service ... ." The difference between the statutes
is, therefore, a Florida Statute § 83.59 (2013) action is in rem against property only; therefore, service of
process by posting applies to actions under § 83.59 (2011), and only court costs may be recovered; while
a Florida Statute § 83.625 (2013) (Ex “5”), action is in personam, including claims against the person of
the Defendant; therefore, if required personal service is "effected," both attorney's fees and court costs
may be recovered. Florida Statute § 83.59 (2013), did not require personal service, and therefore did not
— and could not — provide for recovery of a money judgment for attorney's fees.
Herein, no money judgment was sought in the within Complaint, (App "N" Doc 1 Pg 2
Par 4), and service of process was initially by posting — that is, the Clerk's mailing of copies of Complaint
and Summons to the Defendant. (App "M" Doc 1 Docket, Pg 4, 12/9/11 entries). It is to this service by
posting that Petitioners initially responded. (App "O" Doc 1, Answer, Pg 2, Par 9). The Complaint was
never amended to allege any action other than one for possession only under Florida Statute § 83.59.
The un-amended, in rem, Complaint for possession only, brought pursuant to Florida Statute § 83.59

4

McClung v. Estevez
Case No. 20-6735

(2011), would nevertheless limit recovery to court costs, and exclude attorney's fees which are a money
judgment, and therefore outside the scope of an in rent action.
4.

The Supreme Court of Florida made it clear that the statute under which a claim is

brought is controlling over Florida Statute § 83.48 (2013). In Lewis v. Guthartz, 428 So.2d 222, 224
(Fla. 1982), which was an action brought by tenants against a landlord, where "the gravemen of the
Tenant's claim was embedded solely in terms of the [FHA] regulatory agreement," Florida Statute §
83.48 was held "inapplicable," and the attorney's fees awarded the prevailing parties under Section 83.48
were reversed. The Supreme Court, quoting and applying the statute then in effect, (amended thereafter
to include "this part"), held:
Section 83.48 is applicable only where a landlord under a rental
asreement is entitled by its terms to recover attorneys' fees from a
tenant A corresponding right is granted to the tenant .... (Emphasis
provided).
Applied herein, under the amended statute, the holding would be as follows: Section 83.48 is applicable
only where a landlord under a provision of this part is entitled by its terms to recover attorneys' fees
from a tenant. As the statute in "this part" which the landlord sought to enforce herein, Florida Statute §
83.59 (2013) does not entitle the landlord to attorney's fees, Florida Statute 83.48 (2013) is
"inapplicable" to Respondent ESTEVEZ' Motions for Attorney's Fees; and the October 17, 2013 award of
attorney's fees, (App "B" Doc 1), must be reversed under Lewis v. Guthartz, supra, solely because
Florida Statute 83.48 (2013) "do not apply," Tilson, supra, on the date of the decision, July 1, 2013.
5.

Respondent ESTEVEZ appears to be "the party in whose favor a judgment or decree

has been rendered," or "prevailing party," which is defined in Hensley v. Eckerhart, 461 U.S. 424, 433,
103 S.Ct. 1933, 1939, 76 L.Ed.2d 40 (1983) as the party having '"succeeded on any significant issue in
litigation which achieves some of the benefit the parties sought in bringing suit."' However, if the
underlying July 24, 2012 Final Judgment, which determines prevailing party for purposes of attorney's
fees, is void ab initio, and therefore a nullity for all purposes, including a prevailing party determination,
even an award of costs would be invalid.
5

McClung v. Estevez
Case No. 20-6735

Although "if process or service is insufficient, the court lacks jurisdiction over the
defendant and a judgment entered therein is invalid," Powell v. Best Buy Co., Inc., "II Standard of
Review," No. 3:21-cv-00064-MOC-DSC, USDC W.D. North Carolina, Charlotte Division, March 22,
2021; and although entry of judgment on default void for lack of written notice, in violation of
Fed.R.Civ.P 55(b)(2), and Fla.R.Civ.P. 1.500(b), voids the ensuing judgment; these issues were
expressly raised in the original Petition and cannot be raised herein. However, implicit in the Statement
of the Facts in the original Petition, but not expressly raised as an issue, is the fact that the July 24, 2012
Final Judgment (App "I" Doc 1) was entered while the reviewing court in Case No 12-081 AP (01) still
had jurisdiction, which continued until the September 10, 2012 Mandate, (App "J" Doc 3), was "duly
remitted to, and received in, the office of the clerk of the lower court." Colonel v. Reed, 379 So.2d 1297,
1298 (Fla 1980). The Supreme Court of Florida added: "Obviously, if the appellate court does not lose
jurisdiction until the mandate is issued, the trial court cannot regain jurisdiction until that time;" and
thereupon the Supreme Court of Florida, on certiorari, reversed the November 1, 1978 Judgment entered a
month before the December 1, 1978 receipt of the Mandate, holding:
"[T]he County Court had no jurisdiction to proceed with the second trial
and entry of judgment prior to the receipt of the Mandate from the
Circuit Court."
Colonel v. Reed, supra, p. 1298. Likewise herein, the County Court had no jurisdiction to enter the July
24, 2012 Final Judgment (App "I" Doc 1) prior to the receipt of the September 10, 2012 Mandate (App
"J" Doc 3) from the Circuit Court.

The Court in Florida Organic Aquaculture, LLC, v Advent

Environmental Systems, LLC, 268 So.3d 910, 912 (Fla. 5th DCA 2019), clarified that where, as herein,
there is a reservation of jurisdiction to consider attorney's fees in an otherwise executable, final judgment
"constituting an end to judicial labor in the case," the reservation ofjurisdiction is "nonfinal as to the issue
of attorney's fees." The Final Judgment, (App "I" Doc 1), entered July 24, 2012, and executed, with Writ
of Possession returned August 10, 2012, (App "M", Doc 1 Pg 3, Docket), is therefore void ab initio as
entered by the Trial Court at a time when the Trial Court was totally without jurisdiction to finally
dispose of the case.
6

McClung v. Estevez
Case No. 20-6735

There is, however, another reason why the July 24, 2012 Final Judgment, (App "I" Doc
1), is void ab initio; and this reason is found in Federal case law interpreting the term "void" in motions
for relief from judgment under FedR.Civ.P. 60(b)(4), the Florida counterpart being Fla.R.Civ.P.
1.540(b)(4). The United States Court of Appeal, First Circuit, in Lubben v. Selective Service System
Local Board 27,453 Fed.2d 645, 649 (1972), stated:
A void judgment is to be distinguished from an erroneous one, in
that the latter is subject only to direct attack. A void judgment is
one which, from its inception, was a complete nullity and without
legal effect.— In the interest of finality, the concept of void
judgments is narrowly construed. While absence of subject matter
jurisdiction may make a judgment void,— such total want of
jurisdiction must be distinguished from an error in the exercise of
jurisdiction. A court has the power to determine its own
jurisdiction, and an error in that determination will not render the
judgment void. Only in the rare instance of a clear usurpation of
power will a judgment be rendered void. (Emphasis provided);
[Footnote references were to: 12 7 Moore's Federal Practice f
60.25; and nE. g„ Kalb v. Feuerstein, 308 U.S. 433, 60 S.Ct. 343,
84 L.Ed. 370 (1940); In re Burrus, 136 U.S. 586, 10 S.Ct. 850, 34
L.Ed. 500 (1890); United States to use of Wilson v. Walker, 109
U.S. 258, 3 S.Ct. 277, 27 L.Ed. 927 (1883)].
The fact that the trial court in Colonel v. Reed, supra was concerned about such a "clear
usurpation of power" by the County Court's proceeding to re-try the case and re-enter judgment
without regard to the jurisdiction of the pending appeallate court, is evidenced by the Supreme
Court of Florida, on certiorari, directly reversing the trial court order. Virtually the same facts
exist herein. Although Petitioners brought the issue to the Trial Court's attention by means of
Emergency Motion to Vacate Premature Judgment and for stay (Ex "6"), the Trial Court found
the judgment was "properly entered" and on July 30, 2012, denied the Motion (App "I" Doc 2).
Entry of the July 24, 2012 Final Judgment (App "I" Doc 1) was therefore clearly an intentional
"usurpation of power" of the kind that voids judgments under Lubben, supra. In United States

1

McClung v. Estevez
Case No. 20-6735

ofAmerica v. Boch Oldsmobile, Inc., 909 Fed.2d 657, 661-662, United States Court of Appeal,
First Circuit 1990, the court similarly held:
A judgment is void, and therefore subject to relief under Rule
60(b)(4), only if the court that rendered judgment lacked
jurisdiction or in circumstances in which the court's action
amounts to a plain usurpation of power constituting a violation
of due process. V.T.A., Inc. v. Airco, Inc., 597 F.2d at 224. It is
essential to state, that total want of jurisdiction must be
distinguished from an error in the exercise of jurisdiction, and that
only "rare instancefs] of a (**pg 662**) clear usurpation of
power" will render a judgment void. Lubben v. Selective Service
System Local Board No. 27, 453 F.2d at 649. (Emphasis
provided).
While such "instances" may be "rare" in Federal Courts, Colonel v. Reed, supra, indicates it does
occur — in particularly in County Courts; for in Pro-Art Dental Lab v. V-Strategic Group, LLC,
986 So.2d 1244, 1259, (Fla. 2008), the Supreme Court of Florida, in reversing a County Court
judgment for a landlord, criticized the trial court judge for "sua sponte amending] the plaintiffs
complaint to vest itself with jurisdiction," and prohibited such a practice. Therefore, even the
very narrow definition of "void" judgments includes what occurred herein under the Federal
standard of "clear usurpation of power." The July 24, 2012 Final Judgment is void ab initio, and
therefore a nullity for all purposes, including determination of a prevailing party for purposes of
awarding fees under Florida Statute § 83.48 (2013) at issue herein.
6.

The award of compensatory damages under an "inapplicable ordinance" was

found to be "fundamental error" in Keys Company v. Sens, supra, pg 1275. The court in Keys
Company, supra defined "fundamental error," as "error which goes to the foundation of the case
or goes to the merits of the cause of action." The exception of fundamental error to the rule that
"questions not presented to and ruled upon by the trial court are not reviewable on appeal" was
applied in Keys Company, supra, as it is herein.
8

McClung v. Estevez
Case No. 20-6735

In reversing the judgment on jury verdict, the Court in Keys Company, supra, Pg 1275, held:
The error of imposing on a defendant compensatory damages which are
not authorized by law and which are contrary to law is one that goes to
the ultimate merits of the cause. Moreover, such an error is one of
constitutional dimension, for the reason that enforcement of such a
judgment would constitute a taking of property from the defendant
without due process of law. (Emphasis provided.)
Herein, enforcing the at-issue October 17, 2013 money judgment for attorney's fees awarded under an
inapplicable statute, and therefore not authorized by law and contrary to law, would constitute taking
Petitioners' property without due process of law. This Court has jurisdiction under the Fourteenth
Amendment to the Constitution of the United States-, and this Court has the authority "to declare a state
court decision "null and void." Rooker v. Fidelity Trust Comany, 263 U.S. 413, 414-416 (1923); cited in
Hancock v. Miller, United States Court of Apeals, 6th Circuit, 3/26/21.

Conclusion
The at-issue, October 17, 2018 Order, (App "B" Doc 1), awarding attorney's fees under an
inapplicable statute, Florida Statute § 83.48 (2013), and therefore not authorized by law and contrary to
law, and based upon the July 24, 2012 Final Judgment, (App "I" Doc 1), which is void and therefore fails
to make the statutorily required determination of prevailing party, must be vacated and/or reversed to
prevent enforcement which would constitute taking of Petitioners' property without due process of law.
Therefore, Petitioners respectfully request this Court to grant this Petition for Rehearing so that it may
remand this cause to the Third District Court of Florida, now the court with appellate jurisdiction, (App
"A" Doc 6), with directions to reverse the per curiam affirmance, (App “A” Doc 1), of the at-issue order
awarding attorney's fees, (App "B" Doc 1), and to direct the Trial Court: (1) to vacate the July 24, 2012
Final Judgment, (App "I" Doc 1), as "null and void;" (2) to reverse the successive, October 17, 2013, atissue order, (App "B" Doc 1), as entered without a prevailing party determination, and based upon a
statute which did not apply; and (3) to proceed with any other matter heretofore or hereafter raised by
Respondent ESTEVEZ in a manner consistent herewith.

9

McClung v. Estevez
Case No. 20-6735

CERTIFICATE OF GOOD FAITH
Under penalty of perjury, Petitioners declare that this Petition for Rehearing is submitted in good
faith and not for delay. Petitioners further submit that the foregoing constitutes "substantial ground" for
rehearing, for lack of authority even to seek statutory attorney's fees under the facts of this case and
statute relied upon is fundamental error which, if enforced, would constitute a taking of Petitioner’s
property without due process of law.
Executed on April

a, 2021.

XRANK A. McCLUNG, JR., Petitioned, Pn
P.O. Box 14-2063, Gainesville, FL 3£614^
Telephone: (352) 214-8273

Z
AN E. TELLMAN-McCLUNG, Petitioner,
Pro Se
P.O. Box 14-2063, Gainesville, FL 32614-2063
Telephone: (352) 247-5063

10

1

McClung v. Estevez
Case No. 20-6735

Case No. 20-6735

IN THE
SUPREME COURT OF THE UNITED STATES
From:
Supreme Court of Florida Case No. SC 19-1814
Third District Court of Appeal of Fla. Case No. 3D19-1562
11th Jud. Cir. of Fla. Appellate Division Case No.13-394 AP (01)
County Court, Miami-Dade Cty, Florida Case 2011-026200 CC 23 (02)
FRANK A. McCLUNG, JR. and
MARIAN E. TELLMAN-McCLUNG,
his wife,
Petitioners,
vs.
ELIA E. ESTEVEZ,
Respondent.

PROOF OF SERVICE
WE, Frank A. McClung, Jr. and Marian E. Tellman-McClung, Petitioners, do swear or declare
that on this date, Thursday, April 15, 2021, as required by Supreme Court of the United States Rule 29,
Petitioners served the foregoing Petition for Rehearing on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by depositing an envelope containing the
above document in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third party-commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Andrew P. Kawel, Esq., Counsel for Respondent ELIA E. ESTEVEZ
Kawel, PLLC, 331 Almeria Avenue, Coral Gables, FL 33134
We declare under penalty of peijury that the foregoing is true anjHxhjre^fT
Executed on April

2021.

P.O. Box 14-2063, Gainesville,
Telephone: (3 52) 214-8273

14-2063

MARIAN E. TELLMAN-McCLUNG, Petition^
P.O. Box 14-2063, Gainesville, FL 32614-2063
Telephone: (352) 247-5063
11

Fla. Stat. § 83.48
Current through Chapter 1 of the 2021 Legislative Session
Section 83.48 - Attorney fees
In any civil action brought to enforce the provisions of the rental agreement or this part, the party
in whose favor a judgment or decree has been rendered may recover reasonable attorney fees and
court costs from the nonprevailing party. The right to attorney fees in this section may not be
waived in a lease agreement. However, attorney fees may not be awarded under this section in a
claim for personal injury damages based on a breach of duty under s. 83.51.
Fla. Stat. § 83.48
Amended by 2013 Fla. Laws, ch. 136,s 2, eff 7/1/2013.s. 2, ch. 73-330; s. 4, ch. 83-151.

Ex “1” Page 1 of 1

2012 Florida Statutes
Title VI CIVIL PRACTICE AND PROCEDURE
Chapter 83 LANDLORD AND TENANT Entire Chapter
SECTION 48
Attorney’s fees.
83.48 Attorney’s fees.—In any civil action brought to enforce the provisions of the rental
agreement or this part, the party in whose favor a judgment or decree has been rendered may
recover reasonable court costs, including attorney’s fees, from the nonprevailing party.
History.—s. 2, ch. 73-330; s. 4, ch. 83-151.

Ex “2” Page 1 of 1

2011 Florida Statutes
Title VI CIVIL PRACTICE AND PROCEDURE
Chapter 83 LANDLORD AND TENANT Entire Chapter
SECTION 59
Right of action for possession.
83.59 Right of action for possession.—
(1) If the rental agreement is terminated and the tenant does not vacate the premises, the
landlord may recover possession of the dwelling unit as provided in this section.
(2) A landlord, the landlord’s attorney, or the landlord’s agent, applying for the removal of a
tenant shall file in the county court of the county where the premises are situated a complaint
describing the dwelling unit and stating the facts that authorize its recovery. A landlord’s agent is
not permitted to take any action other than the initial filing of the complaint, unless the
landlord’s agent is an attorney. The landlord is entitled to the summary procedure provided in s.
51.011 [F.S. 1971], and the court shall advance the cause on the calendar.
(3) The landlord shall not recover possession of a dwelling unit except:
(a) In an action for possession under subsection (2) or other civil action in which the issue of
right of possession is determined;
(b) When the tenant has surrendered possession of the dwelling unit to the landlord;
(c) When the tenant has abandoned the dwelling unit. In the absence of actual knowledge of
abandonment, it shall be presumed that the tenant has abandoned the dwelling unit if he or she is
absent from the premises for a period of time equal to one-half the time for periodic rental
payments. However, this presumption does not apply if the rent is current or the tenant has
notified the landlord, in writing, of an intended absence; or
(d) When the last remaining tenant of a dwelling unit is deceased, personal property remains on
the premises, rent is unpaid, at least 60 days have elapsed following the date of death, and the
landlord has not been notified in writing of the existence of a probate estate or of the name and
address of a personal representative. This paragraph does not apply to a dwelling unit used in
connection with a federally administered or regulated housing program, including programs
under s. 202, s. 221(d)(3) and (4), s. 236, or s. 8 of the National Housing Act, as amended.
(4) The prevailing party is entitled to have judgment for costs and execution therefor.
History.—s. 2, ch. 73-330; s. 1, ch. 74-146; s. 24, ch. 82-66; s. 1, ch. 92-36; s. 447, ch. 95-147; s.
1, ch. 2007-136.

Ex “3” Page I of 1

2013 Florida Statutes
Title VI CIVIL PRACTICE AND PROCEDURE
Chapter 83 LANDLORD AND TENANT Entire Chapter
SECTION 59
Right of action for possession.
83.59 Right of action for possession.—
(1) If the rental agreement is terminated and the tenant does not vacate the premises, the
landlord may recover possession of the dwelling unit as provided in this section.
(2) A landlord, the landlord’s attorney, or the landlord’s agent, applying for the removal of a
tenant, shall file in the county court of the county where the premises are situated a complaint
describing the dwelling unit and stating the facts that authorize its recovery. A landlord’s agent is
not permitted to take any action other than the initial filing of the complaint, unless the
landlord’s agent is an attorney. The landlord is entitled to the summary procedure provided in s.
51.011. and the court shall advance the cause on the calendar.
(3) The landlord shall not recover possession of a dwelling unit except:
(a) In an action for possession under subsection (2) or other civil action in which the issue of
right of possession is determined;
(b) When the tenant has surrendered possession of the dwelling unit to the landlord;
(c) When the tenant has abandoned the dwelling unit. In the absence of actual knowledge of
abandonment, it shall be presumed that the tenant has abandoned the dwelling unit if he or she is
absent from the premises for a period of time equal to one-half the time for periodic rental
payments. However, this presumption does not apply if the rent is current or the tenant has
notified the landlord, in writing, of an intended absence; or
(d) When the last remaining tenant of a dwelling unit is deceased, personal property remains on
the premises, rent is unpaid, at least 60 days have elapsed following the date of death, and the
landlord has not been notified in writing of the existence of a probate estate or of the name and
address of a personal representative. This paragraph does not apply to a dwelling unit used in
connection with a federally administered or regulated housing program, including programs
under s-. 202, s. 221(d)(3) and (4), s. 236, or s. 8 of the National Housing Act, as amended.
(4) The prevailing party is entitled to have judgment for costs and execution therefor.
History.—s. 2, ch. 73-330; s. 1, ch. 74-146; s. 24, ch. 82-66; s. 1, ch. 92-36; s. 447, ch. 95-147; s.
l,ch. 2007-136; s. 11, ch. 2013-136.

Ex “4” Page 1 of 1

2013 Florida Statutes
Title VI CIVIL PRACTICE AND PROCEDURE
Chapter 83 LANDLORD AND TENANT Entire Chapter
SECTION 625
Power to award possession and enter money judgment.
83.625 Power to award possession and enter money judgment.—In an action by the landlord
for possession of a dwelling unit based upon nonpayment of rent, if the court finds the rent is
due, owing, and unpaid and by reason thereof the landlord is entitled to possession of the
premises, the court, in addition to awarding possession of the premises to the landlord, shall
direct, in an amount which is within its jurisdictional limitations, the entry of a money judgment
with costs in favor of the landlord and against the tenant for the amount of money found due,
owing, and unpaid by the tenant to the landlord. However, no money judgment shall be entered
unless service of process has been effected by personal service or, where authorized by law, by
certified or registered mail, return receipt, or in any other manner prescribed by law or the rules
of the court; and no money judgment may be entered except in compliance with the Florida
Rules of Civil Procedure. The prevailing party in the action may also be awarded attorney’s fees
and costs.
History.—s. 1, ch. 75-147; s. 8, ch. 87-195; s. 6, ch. 88-379.

Ex “5” Page 1 of 1

IN THE COUNTY COURT IN AND FOR
MIAMI-DADE COUNTY, FLORIDA
CIVIL DIVISION
ELIA E. ESTEVEZ,

CASE NO.: 11- 26200-CC-23 (02)
PlaintiffAppellee,

vs.

a*

* „'

. ft ■ \

t:

FRANK McCLUNG, et al,

^'WE CLERK
*

:

DefendantsAppellants.

JUL.2 6 2012

EMERGENCY REQUEST FOR HEARING
-andEMERGENCY MOTION TO VACATE PREMATURE JUDGMENT
AND TO STAY FURTHER PROCEEDINGS THERETO
Defendants FRANK McCLUNG and all others in possession, pursuant to Rules 9.310,
Florida Rules of Appellate Procedure, and all Rules of Procedure applicable to emergency motions,
respectfully request an emergency hearing on their emergency motion to vacate premature Final
Judgment entered herein July 24,2012, while appellate proceedings remain pending, in violation of
Rule 9.130(f), Florida Rules of Appellate Procedure.
1.

Defendants, who are Appellants in Case No. 12-081 AP presently pending in the

Circuit Court of the 11th Judicial Circuit, in and for Miami-Dade County, Florida, timely filed their
Motion for Rehearing and for Declaration that Final Judgment Prematurely Entered is a Nullity. A
copy of said Motion, date stamped by the Clerk of the Appellate Division of the Circuit Court, is
attached hereto as
2.

E
Exhibit
“1".

Defendants, who are Appellants in Case No. 12-081 AP presently pending in the

Circuit Court of the 11th Judicial Circuit in and for Miami-Dade County, Florida filed their
Memorandum of Law in support of said Motion for Rehearing and Declaration. A copy of said
Memorandum of Law, date stamped by the Clerk of the Appellate Division of the Circuit Court, is
attached hereto as Plaiiiliffe’ Exhibit “2".
3.

Rule 9.130(f). Florida Rules of Appellate Procedure, is black letter Florida law,

repeatedly and affirmatively enforced by Florida Courts, as discussed in the attached Memorandum
of law, Exhibit “2" hereto. The lower tribunal had no jurisdiction to enter a Final Judgment while
Ex “6” Page 1 of 9

Estevez v. McClung
Case No. 11-26200 CC 23 (02)

'

appellate proceedings remained pending. Appeal Case No. 12-081 AP remained pending for at least
fifteen (15) days subsequent to July 11,2011, or through July 26,2011. Now that Appellants have
filed their Motion for Rehearing, appellate jurisdiction will continue past July 26, 2011 until all
matters pertaining to Appellants’ Motion for Rehearing and to Vacate Premature Judgment,
including any rehearing thereon which the Court may order, are finally concluded. Therefore, this
Court’s Final Judgment dated July 24,2011, entered without jurisdiction to do so, is a nullity
4.

On March 2,2012, Defendants filed herein a Motion for Stay Pending Review which

has not been ruled upon. Should any harm befall Defendants as a result of the premature entiy of
a Final Judgment herein, Defendants intend to seek sanctions against all those in any way
- responsible.
WHEREFORE, Defendants respectfully request this Honorable Court to conduct an
emergency hearing on this emergency motion to vacate the premature Final Judgment entered by this
court without jurisdiction to do so, for the purpose of vacating said Final Judgment, which is a
nullity, and entering an immediate stay of all further proceedings herein pending the finalization of
Appellate Case No. 12-081 AP.
CERTIFICATE OF SERVICE
WE CERTIFY that copy hereof was mailed to Julio C. Cavero, Esq., Cavero & Associates,
P.A., Attorneys for Plaintiff, 815 Ponce de Leon Blvd., Suite 206, Coral Gables, Florida 33134, this
26th day of July, 2012.

4/P

FRA^ A. McCLUNG, JR., DeferydapjkTro Se
PXTBox 61-0661, North Miami, FL 33161
Telephone: (305) 733-5544 Messages (305) 893-9110

MARIAN E. TELLMAN McCLUNG, Defendant;
Pro Se
P.O. Box 61-0661, North Miami, FL 33161
Telephone: (305) 733-5544 Messages (305) 893-9110
-2-

Ex “6’ Pg 2 of 9

IN THE CIRCUIT COURT OF THE 11™
JUDICIAL CIRCUIT IN AND FOR
MIAMI-DADE COUNTY, FLORIDA

gH lift.

l$

APPELLATE DIVISION

'(H£ 9XFnSlc0 **
CASE NO. 12-081 AP
L. T. Case No. 11-026200-CC-23

FRANK McCLUNG, et al,
Appellants,
vs.

ELIA E. ESTEVEZ,
Appellee.

APPELLANTS’ MOTION FOR REHEARING
AND FOR DECLARATION THAT
FINAL JUDGMENT PREMATURELY ENTERED IS A NIILT JTV
Appellants, FRANK McCLUNG, et al, pursuant to Rule 9.130(f), Florida Rules
of Appellate Procedure and Rule 9.330(a), Florida Rules of Appellate Procedure,
respectfully request this Honorable Court for Rehearing ofthe within cause heard and
determined July 11, 2012, on the following grounds:
1.

The decision of this Court was entered herein July 11,2012 [Exhibit “A”

hereto.] Clearly stated on the Order was the following: “Not Final Until disposition
of timely filed motion for rehearing, clarification, or certification.”
2.

Under Rule 9.330(a), Florida Rules of Appellate Procedure, a motion

for rehearing, clarification, or certification “may be filed within 15 days of an

f)io&hcknk1 Ed-

F.x*6’?y6jBg3Tf9

McClung v. Estevez
Case No. 12-081 AP

i

order...”. The jurisdiction of this court in this case, therefore, continued for at least
fifteen (15) days, or from from July 12, 2012 to and including July 26, 2012.
3.

The Trial Court therefore prematurely entered Final Judgment on July

24,2012. [Exhibit “B” hereto.] The Trial Court lacked jurisdiction to enter a Final
Judgment prior to at least July 27, 2012 as this appeal was then and is now still
pending.
4.

Rule 9.130(f), Florida Rules of Appellate Procedure, provides:
In the absence of a stay, during the pendency of a review of
a non-final order, the lower tribunal may proceed with all
matters, including trial or final hearing; provided that the
lower tribunal may not render a final order disposing of
the cause pending such review. Emphasis provided.

5.

As many Florida appellate courts have found', this Appellate Court’s

pending jurisdiction over this proceeding usurps the jurisdiction of the trial court to
enter Final Judgment. This Appellate Court, under Rule 9.130(f), Florida Rules of
Civil Procedure, cannot permit the proceedings below to be finally determined while
this Court still has jurisdiction, as it does herein.
6.

Appellants further respectfully request this Court to re-hear this cause,

and specifically to re-consider its jurisdictional ruling, for Appellate Rule 9.030(c),

1 See Memorandum of Law in Support of Motion for Rehearing and to Vacate
Final Judgment.
-2Ex “6” Page 4 of 9

,

McClung v. Estevez
Case No. 12-081 AP

Jurisdiction of Circuit Court, (1) Appeal Jurisdiction (B) Non-final orders of lower
tribunals as provided by general law, should apply.
7.

Appellants were seriously limited in presenting their case to this Court

because they were precluded from filing their Initial Brief and Appendix, even after
an extension was granted to April 22,2012 by this Court [Exhibit “C” hereto], for on
April 18, 2012, four (4) days before their Initial Brief and Appendix was due, this
Court Ordered Appellants to respond to Appellee’s Motion to Dismiss within fifteen
(15) days, and prohibited further filings of any kind.
8.

This cause is meritorious, as Notice was admittedly improper; service of

process was invalid; a written rental agreement with a six-month term existed; rental
non-payment was never an issue; Appellants were advised by Appellee that no further
rents would be accepted; and Appellants’ defenses regarding Appellee’s breach of
statutory and contractual duties were never even seriously considered by the Trial
Court. And now, the Trial Court has usurped the jurisdiction of this Appellate Court
by prematurely entering Final Judgment.
WHEREFORE, Appellants respectfully request this Honorable Court to Rehear
the within cause and to declare the Final Judgment prematurely entered below as a
nullity. Appellants further respectfully request this Honorable Court to issue a

-3Ex “6” Page 5 of 9

McClung v. Estevez
Case No. 12-081 AP

written opinion.

CERTIFICATE OF SERVICE
WE CERTIFY that copy hereof has been furnished to Andrew Paul Kawel,
Esq., Kawel PLLC, Appellate Attorney for Appellee ESTEVEZ, Plaintiff below, 815
Ponce de Leon Blvd., Suite 305, Coral Gables, Florida 33134, this 26th day of July,
2012.

FRANK A. McCLUNG, JR., Appellant,
Se
P.O. Box 61-0661, North Miami, rkrSi o 1-0661
Telephone: (305) 733-5544 Messages (305) 893-9110

r(

OA/U^A
MARIAN
E. TELLMAN McCLUNG, Appellant^"

Pro Se
P.O. Box 61-0661, North Miami, FL 33161
Telephone: (305) 733-5544 Messages (305) 893-9110

-4Ex “6” Page 6 of 9

ELEVENTH JUDICIAL CIRCUIT
IN THE CIRCUIT COURT OFTHE^ ^
MIAMI-DADE COUNTY, FLORIDA
APPELLATE DIVISION
al Until disposition of timely filed motion for rehearing.

clarification, or certification

Not Fin

ho
CO
w r>

CASE NO.: 12-081AP
LOWER COURT CASE NUMBER: 11-026200-CC 23

>n

C—

c=

2,,-

^c
rc"
5s t

S-=

frank mcclung
Appellant(s)

HO

m
o
o

TJ

-a
CO
G

VS.

ELIA E ESTEVEZ
Appellee(s)
, Florida, Judge CARYN C. SCHWARTZ.
A„ Appeal from the County Court for Mianui-Dade County
. MCCLUNG, PRO SE, for appellant(s).
FRANK a. MCCLUNG AND MARIAN E
ANDREW P. KAWEL, for appellee(s).
JR, DIANE WARD, BEATRICE BUTCHKO, JJ.
Before PEDRO P. ECHARTE
PER CURIAM.
[*] Denied.
[ ] Affirmed.

/ t 'K

v-—d.

This

,2012.

MOPEi

EXHIBIT

4m

r:
BEATRICEnBUTCHKO
)

'-ee:

ct&^

y
FRANK A MCCLUNG AND MARIAN E.
MCCLUNG PRO SE
PO BOX 61-0661
NORTH MIAMI, FL 33131

PCA affirmed/denied rev 7/11/2012

ANDREW P. KAWEL
815 PONCE DE LEON BLVD
CORAL GABLES, FL 33134

Ex “6” Page 7 of 9

IN THE COUNTY COURT OF THE ELEVENTH (11th) JUDICIAL CIRCUIT IN
AND FOR MIAMI-DADE COUNTY, FLORIDA
CIVIL DIVISION

ELIA E. ESTEVEZ,

CASE NUMBER: 12-26200 CC 23 (02)

PLAINTIFF,
vs.
FRANK McCLUNG, AND ALL
OTHERS IN POSSESSION OF THE
SUBJECT PROPERTY AND/ OR UNIT,
DEFENDANTS
/

FINAL JUDGMENT FOR REMOVAL OF TENANT
THIS ACTION came on to be heard before this Court upon Plaintiff
, . _ s, Complaint
T. for
Removal of Tenant and subsequent Emergency Motion for Final Judgment Upon
consideration of the evidence presented herein, a Final Judgment may be duly and

That a Final Judgment be and same is hereby entered against FRANK McCLUNG and
all others in possession of the subject property, for possession of the premises/real
property located at, and known as:
12530 NE 4th AVENUE, NORTH MIAMI, FLORIDA 33161,
for which let Writ of Possession and execution now issuer
A

j

IA

DONE

in chambers ai

O

iami-Da<

.iUl 2 4 20lK

Day of July, 2012.

JUDGE CARYN CmSCHWARTZ
COUNTY-COURT JUDGi^

exhibit
,1

Plaintiffs Attorney:

3L

COUNTY COURT JUDGE

R!

SRS oisposm^V^

Julio C. Cavero, Esq.
815 Ponce de Leon Blvd., Suite 206
Ex “6” PaUVSff
Coral Gables, Florida 33134

Haruey Ravin
■ clerk of the circuit and county courts
Miami-Dade County, Florida
i-

appellate division
Dade County Courthouse
73 West Flagler, Rm. 138
Miami, Florida 33*3°

RE: Appellate Court Case No.: 12-081 AP
Lower Court Case No.: 11-026200-CC 23
Appellant, FRANKMCCLUNG

February to,

FEB \ 0
in t H£ QFjjCfcgL

vs.
Appellee, ELIA E ESTEVEZ

citnfr/*1tlg,n—1

ToFRANK MCCLUNG JR. and
MARIAN E. TELLMANMCCLUNG
The Clerk of the Court acknowledges receipt of your [X]
filed February 06,2012-

Notice ofAppeal [ ]

Petition for Writ of Certiorari

„ „ .. statute 28 Ml(2, prescribe that .he films fee shall be paid upon the films of a

Appellate Rales p.tooCb), 9 ••10(b),9 .300.) and
Notice of Appeal or Petition. A filing

above cited case by MW *»■ *>«.
, d n,e copies of the index on all parties

sttS^&iSFt&!SS&&!S=a~
services rendered in thepreparation of said :2012.

as noted below,

“""'I:,:;.,.,--

Pursuant to
subject to any orders tolling the time for said filing.
initial brief shall be served within 70 days of
CIVIL and ADMINISTRATIVE APPEALS: Rule p.uoUKO Appellant's
an a ppendix as prescribed by rule

appointed counsel, whichever is later.
Your Initial Brief is due on April 22, 2012.
Failure to comply
^S‘S2^o1™c»se.
ZZZo

deposit fee or filing of the

— o,APP0«- PcocetWoc

— dttd

INITIAL BRIEF BY
^^„

enclose
Certificate of Service.
Sincerely,
Harvey Ruvin
Clerk of Courts
BY.

ynya D. Bennett,
Deputy Clerk

EXHIBIT

I%

d"

JUUO C CAVERO, ESQ.

Ex “6” Page 9 of 9

C16 I

5

W€5

a‘CZS5S;

ww. mi an\i - 0 a c e c 1 e

. ccrr.

